 Office of Inspector General
     Audit Report



FAA’S CIVIL AVIATION REGISTRY LACKS
 INFORMATION NEEDED FOR AVIATION
  SAFETY AND SECURITY MEASURES
       Federal Aviation Administration

        Report Number: FI-2013-101
        Date Issued: June 27, 2013
           U.S. Department of
                                                                     Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Report: FAA’s Civil Aviation Registry                                         Date:     June 27, 2013
           Lacks Information Needed for Aviation Safety and
           Security Measures
           Report Number FI-2013-101

  From:    Louis King                                                                         Reply to
                                                                                              Attn. of:    JA-20
           Assistant Inspector General for Financial and
             Information Technology Audits

    To:    Federal Aviation Administrator

           As part of the Federal Aviation Administration’s (FAA) safety mission, its Flight
           Standards Service 1 (AFS) maintains the Civil Aviation Registry to ensure that
           unqualified aircraft owners and airmen 2 do not receive aircraft registrations or
           licenses. FAA uses the Registry to process and maintain ownership registrations
           on 350,000 3 private and commercial aircraft and records on pilots’ licenses. The
           Registry, which contains personally identifiable information (PII), also serves as a
           source of information for other Government agencies, including those responsible
           for homeland security and investigations of aviation accidents and other incidents.

           We initiated this audit because of congressional concerns over aviation safety and
           the security of the information that FAA maintains in the Registry. Our objectives
           were to determine whether (1) aircraft registrations and pilot certifications include
           the information needed for FAA to ensure aviation safety, (2) security controls
           keep the Registry secure from unauthorized access, and (3) contingency plans are
           sufficient to recover the Registry system in the event of an emergency.

           To conduct our work, we interviewed officials from FAA’s Flight Standards
           Service and Aviation Safety Office of Quality, Integration, and Executive
           Services. We reviewed laws governing aircraft registration and pilot certification
           and examined FAA’s policies and procedures on the Registry’s operations. We
           1
             AFS promotes safe air transportation by setting standards for certification and oversight of pilots; air carriers including
           major airlines, regional carriers and cargo carriers; flight schools and training centers; and management of the
           information systems of record for pilots and all civil aircraft.
           2
             Individuals certified by FAA’s Airman Certification Branch under 14 CFR Aeronautics and Space § 61, 63 and 65.
           3
             The number of U.S. civil aircraft registered as of August 2012.
                                                                                                                          2


also assessed FAA’s compliance with Department of Transportation (DOT) policy
on maintenance of information systems’ confidentiality and availability. We
conducted this audit between January 2011 and April 2013 in accordance with
generally accepted Government auditing standards. Exhibit A further details our
scope and methodology.

BACKGROUND

AFS manages the Registry—located in Oklahoma City, Oklahoma—which
consists of two databases, one on aircraft and the other on airmen. For aircraft,
AFS accepts applications for and maintains permanent records on the registrations
of all civil aircraft. Title 14 (Aeronautics and Space) of the Code of Federal
Regulations (CFR) requires the application to include the aircraft’s make, model,
and serial number; the applicant’s permanent address; and documentary proof—
such as title of ownership or bill of sale—that the applicant owns the aircraft. Each
applicant for registration must also certify that he or she is a citizen of the United
States and that the aircraft is not registered under the laws of any other country.
AFS reviews each applicant’s information and issues Certificates of Aircraft
Registration to applicants who meet requirements. 4

FAA regulations also allow the registration of aircraft owned under trusts, 5 which
allow non-U.S. citizens to have their aircraft registered on FAA’s Registry. To do
this, an aircraft owner will create a trust agreement that transfers the aircraft’s title
to an American trustee. The trustee, who may be an individual or organization,
will register the aircraft under his/her or its name. The agreement will also identify
the beneficiary or person who can use the aircraft. The owner and the beneficiary
are frequently the same person.

In July 2010, to ensure that aircraft owners provide accurate information for
Registry records, FAA issued a rule on aircraft re-registration 6 and registration
renewal. The rule requires the re-registration of all civil aircraft by
December 31, 2013, and enables FAA to cancel the registrations of aircraft that
are not re-registered by this date. After initial re-registration, all aircraft
registrations must be renewed every 3 years.



4
  Title 14, Section 47.5 of the CFR actually states that the Certificate of Aircraft Registration is issued “to the person
who appears to be the owner” (emphasis added) of the aircraft.
5
  A trust is a legal entity created by one party, the owner and trustor, through which a second party, the trustee, holds the
title to the trustor's assets or property for the benefit of a third party, the beneficiary. The trustor/owner may also be a
trustee and/or one of the beneficiaries.
6
  Re-registration will take place between October 1, 2010, and December 31, 2013. All owners are required to re-
register by predetermined quarterly dates based on the month of original registration. First-time registrations issued on
or after October 1, 2010, also expire after 3 years.
                                                                                                           3


CFR 14 also requires all persons who operate aircraft in the United States to obtain
and maintain a valid pilot’s certification. AFS accepts applications for pilots’
certifications and maintains permanent records on the certifications in the
Registry’s pilot database. An application for a pilot’s certification includes the
applicant’s social security number and date of birth, a record of pilot flight time,
and the basis for the application such as test results or graduation from approved
courses 7. FAA uses designated examiners 8—private individuals who act on FAA’s
behalf—to review and approve the applications, and AFS’s Registry examiners
review approved applications and issue certifications. FAA contracts with a
vendor who furnishes the facilities, management, personnel, equipment, and
materials necessary to produce and mail pilots’ certifications.

RESULTS IN BRIEF

FAA’s Civil Aviation Registry lacks accurate and complete information needed
for aviation safety and security measures. The Registry lacks information on
registered aircraft, owners—including non-U.S. citizens—and their compliance
with FAA regulations. FAA’s regulations require owners to periodically update or
correct the information in their Registry records, but the Agency does not check
these re-registrations against the original records to ensure accuracy and regulatory
compliance. We found incomplete registrations for about 5,600 aircraft, or
54 percent, owned under trusts for non-U.S. citizens. As a result, FAA has been
unable to provide information on these aircraft to foreign authorities upon request
when U.S. registered aircraft are involved in accidents or incidents in foreign
countries, as required by the Convention on International Aviation. FAA’s
Registry similarly lacks complete information on pilot certifications, which makes
it difficult for law enforcement officials to use the Registry to conduct security
screenings required by the Intelligence Reform and Terrorism Prevention Act of
2004 (IRTPA) or to detect pilots who provide false information. These data
weaknesses largely stem from FAA’s lack of formal quality control procedures to
regularly reassess the integrity of the Registry’s data and information systems.

FAA has not implemented needed security controls over the Registry’s
configuration and account management to mitigate the risk of unauthorized access
to PII. FAA maintains it is not responsible for information voluntarily submitted to
the Registry. However, FAA’s practices are contrary to Office of Management and
Budget (OMB) and National Institute of Standards and Technology (NIST)
requirements that require protection of PII and emphasize the importance of access
controls, up-to-date operating systems, and continuous monitoring. We found
multiple weaknesses with the Registry servers, including outdated operating
7
 Submission of the data is mandatory, except for the Social Security Number, which is voluntary.
8
 Designated examiners exercise the authority of the FAA Administrator to certify and approve pilots’ records,
certifications, and test results.
                                                                                   4


systems and no routine monitoring over sensitive data access. FAA is also not in
compliance with DOT policies calling for PII encryption and account access
controls. Finally, FAA does not have agreements in place with external parties that
receive registry information to protect PII to prevent unauthorized access, as
required by the Federal Information Security Management Act (FISMA).

FAA’s recovery plan for the Registry does not meet DOT’s information
technology (IT) security policy requirements and is inadequate to ensure that the
system is recoverable after a disaster or other event causing it to be shut-down. For
example, FAA’s test procedures for the Registry’s recovery plan did not include
an alternative processing site for the resumption of Registry functions in case of a
shut-down. Due to a reorganization of information technology activities some
years ago and the Registry’s complexity, FAA had not yet selected an alternate
processing site. Lack of testing of the Registry’s backup systems at an alternative
site creates the risk that FAA will be unable to resume essential operations after a
system shut-down.

We are making recommendations to improve the accuracy, security, and reliability
of the Registry’s data.

FAA’S REGISTRY DOES NOT CONTAIN COMPLETE AND
ACCURATE INFORMATION ON AIRCRAFT REGISTRATIONS AND
PILOT CERTIFICATIONS

FAA does not maintain accurate or complete information in its Registry. For
example, it lacks information on registered aircraft, owners—including non-U.S.
citizens—and their compliance with FAA regulations. FAA similarly lacks
complete information on pilot certifications, which makes it difficult for the
Transportation Security Administration (TSA) and other law enforcement officials
to use the Registry for required security screenings or to detect pilots who provide
false information. A major factor contributing to these weaknesses is FAA’s lack
of formal quality control procedures to regularly reassess the integrity of the
Registry’s data and information systems.

The Registry Lacks Complete and Reliable Information on Registered
Aircraft and Their Owners and Operators

The Registry lacks information on registered aircraft, their owners, and their
operators that FAA needs for aviation and security measures. We selected a
random sample of 68 out of 10,292 fixed wing and rotary aircraft registrations and
found that 37 out of 68 had incomplete registrations. Based on this finding we
estimate that 5,600 or 54.4 percent of aircraft owned under trusts for non-US
citizens lacked important information such as the identity of the trusts’ owners and
                                                                                                    5


aircraft operators. 9 While FAA’s regulations require registration applications to
include copies of all documents that establish these trusts, they require few
documents that identify the owners who established the trusts and how the trusts
comply with regulations. However, under the Convention on International Civil
Aviation, 10 FAA has a duty to provide, upon request from appropriate foreign civil
aviation authorities, accurate information on U.S. registered aircraft operated in
foreign countries. Foreign aviation authorities have brought to FAA’s attention
numerous accidents, operational errors, and other incidents involving U.S. aircraft
registered to trusts for non-U.S. citizen beneficiaries. Because the Registry lacks
information on these aircraft, FAA is at risk of not being able to meet its duty
under the Convention and answer these authorities’ requests for information. FAA
has taken actions by convening a working group to identify key issues, holding
public meetings, and issued proposed policy clarification in the Federal Register
for these types of aircraft registrations, but has yet to conclude work in this area.
We are conducting additional audit work on the relationships between these
trustees and the anonymous owners/beneficiaries.

We also found errors in Registry data. Specifically, 130 of 350,000 aircraft
registration records in the Registry share make and model information and serial
numbers with at least 1 other aircraft, making it difficult for FAA and other
Registry users to identify the true owners of these specific aircraft. While this is a
small number of discrepancies, the impact is potentially significant if a serious
incident occurs and FAA is unable to identify the aircraft’s owner in a timely
manner. Inadequate quality control procedures contribute to such errors. For
example, FAA does not check the Registry for duplicate information or perform
semi-annual reassessments to review the information in aircraft registrations for
accuracy or compliance with regulations in accordance with DOT policy. 11
Instead, FAA relies on each aircraft owner to validate that the information on his
or her aircraft—including make, model, serial number, and the owner’s physical
address—in the Registry is current.

The Registry Does Not Contain Complete and Accurate Information
on Pilots’ Certifications

The Registry also lacks information on pilots that FAA needs to ensure aviation
safety. Over 43,000 airmen have received certifications even though they have not
provided FAA with accurate permanent personal addresses. Despite its policy, 12
FAA has permitted pilots to use business and flight school addresses on their

9
 Our 5,600 estimate has a precision of +/-1,027 at the 90-percent confidence level.
10
   Known as the Chicago Convention, it was signed on December 7, 1944.
11
   DOT Order 1351.37 Departmental Cybersecurity Policy requires that System Owners perform semi-annual
reassessments of the integrity of information and ensure the validity of information inputs.
12
   FAA Order 8900.2 CHG 1, General Aviation Airman Designee Handbook.
                                                                                                              6


applications for certification. As a result, it is difficult for TSA to locate
individuals to conduct IRTPA-required pilot screening. These screenings must be
complete before FAA can issue pilot certifications. The Government
Accountability Office (GAO) recently reported on the impact that FAA’s lack of
data on pilots has on aviation safety13 and has highlighted the importance of the
Registry’s accuracy for ensuring aviation security. 14

FAA also does not comply with IRTPA’s requirements for more secure pilot
certification documentation. IRTPA requires FAA to issue pilots’ licenses that are
tamper resistant, include a photograph of the pilot, and can accommodate a
biometric identifier, such as fingerprints. According to FAA officials, however,
the Agency does not yet require pilots to provide photographs or biometric
identifiers for inclusion in their certifications due to its lack of expertise in
biometrics and a late start in its preparation to meet the requirement. The
Department of Homeland Security’s Inspector General has reported 15 that because
FAA does not require unique identifiers—such as photographs or social security
numbers—on pilots’ certifications, TSA may not be able to identify pilots who
provide false personal information on their certification applications thereby
making it easier for individuals using false identities to receive certifications.

FAA Lacks Formal Quality Control Procedures for the Registry

FAA does not have formal quality control procedures to conduct regular integrity
assessments of the Registry’s data. DOT policy 16 states that Information System
Owners—the manager responsible for an information system’s operation and
maintenance—must reassess semi-annually the integrity of both their systems’
information and software. Furthermore, System Owners must ensure that their
information systems validate information inputs to ensure that the systems’ data
are complete, accurate, and valid, and that the systems identify and reject any
incorrect information. However, FAA has no documentation that describes the
Registry’s quality control requirements for reassessing its data and how those
requirements correspond with FAA’s policy and regulations. 17




13
   GAO, Additional FAA Efforts Could Help Identify and Mitigate Safety Risks, GAO-13-36, October 4, 2012.
14
   GAO, TSA’s Process for Ensuring Foreign Flight Students Do Not Pose a Security Risk Has Weaknesses,
GAO-12-900T, July 18, 2012.
15
   DHS, Transportation Security Administration (TSA) Vetting of Airmen Certificates and General Aviation Airport
Access and Security Procedures, OIG-11-96, July 2011.
16
   U.S. Department of Transportation, Departmental Cybersecurity Compendium, Supplement to DOT Order 1351.37,
June 14, 2011.
17
   14 CFR § 47 (Aircraft Registration) and § 61, 63 and 65 (Airmen Certification).
                                                                                                                          7


THE REGISTRY’S SECURITY CONTROLS ARE INADEQUATE TO
PROTECT THE REGISTRY’S PII FROM UNAUTHORIZED ACCESS

FAA’s security controls for the Registry’s system configuration and account
management do not adequately protect the PII in the system. FAA’s controls do
not comply with DOT policies and put the system at risk for unauthorized access.
Furthermore, FAA does not require the contractor who produces pilots’
certifications to have the security controls required by FISMA and DOT policy in
place.

FAA’s Inadequate Security Controls Put the Registry’s PII at Risk for
Unauthorized Access

OMB requires all Federal agencies to implement the security controls necessary to
prevent inappropriate access to, use, and disclosure of PII. Furthermore, NIST
specifies the controls for high-impact systems, 18 such as the Registry. For
example, NIST requires access controls, up-to-date operating systems 19 and
patches, 20 and continuous monitoring. Pilots’ certifications contain particularly
sensitive PII, including social security numbers and personal medical information.
Aircraft records submitted during the registration process may also contain PII
inadvertently included by the registrant. However, FAA has not implemented
security controls that will mitigate the risk of unauthorized access to the Registry’s
PII. We performed a vulnerability assessment 21 of Registry systems and noted the
following weaknesses:

• Thirty computer servers, 70 percent, of the 42 that support the Registry,
  contained at least 1 high risk or critical vulnerability—a weakness in an
  information system that could be exploited for unauthorized access.

• Two servers were running operating systems that were outdated and therefore
  no longer receiving vendor support or patches.

• Seven servers were missing update patches from 2007 and subsequent years.

•    Access to sensitive Registry data is not monitored.

Furthermore, we found that FAA did not effectively implement the following
controls that are required by FISMA, OMB, or DOT policy:
18
   A system is considered high impact if its loss of confidentiality, integrity, or availability is expected to have a severe
or catastrophic adverse effect on organizational operations, organizational assets, or individuals.
19
   An operating system is the software that allows computer users to run applications with the hardware of a specific
system. Microsoft Windows or Apple Computer’s OS are examples of operating systems.
20
   Patches are software that fix problems with computer programs, including system vulnerabilities.
21
   A vulnerability assessment is a method of identifying weaknesses present in information technology systems by
examining the current software versions and settings.
                                                                                                                   8


• PII encryption. FAA does not encrypt 22 Registry data, including PII, on pilots
  and sensitive information inadvertently submitted by owners for aircraft
  registrations. The lack of encryption makes reading PII easier when it is
  accessed by an unauthorized party or stolen. During the pilot certification and
  aircraft registration processes, FAA receives copies of sensitive information
  such as driver licenses and documents ancillary to trusts, which without
  encryption, is at an increased risk of exposure.

• Annual user account validations 23 to identify, disable, and remove
  accounts are no longer in use. FAA only sporadically validates the Registry’s
  user accounts and does not document this validation. Untimely disabling and
  removal of accounts could lead to unauthorized access to information and
  systems by individuals who are no longer authorized. Additionally, FAA has
  inadequate policies and practices for creating and managing user accounts. For
  example, FAA’s system access authorizations do not adequately segregate
  approval and recording of changes to user accounts.

• Multifactor user identity authentication. OMB requires multifactor identity
  authentication, which consists of a password and another access method such
  as a smart card, to verify Registry users’ identities before granting system
  access. Although FAA indicated that the Registry uses digital signatures 24 to
  authenticate Registry users, we found that it does not use this technology or
  multifactor authentication. In addition, there are over 38,000 Registry users—
  designated examiners that certify pilots’ certifications application—who are
  not FAA employees, heightening the need for strong access controls, such as
  multifactor identity authentication, to prevent compromise of pilots’ PII.

Inadequate procedures, delayed resolution of identified weaknesses, and not
accepting responsibility for PII voluntarily submitted to the Registry contributed to
these weaknesses. Specifically, FAA had no written procedures and guidance on
configuration management and changes making it difficult to monitor and patch
the system. FAA also had not completed the corrective actions included in its
plans of action and milestones (POA&Ms) to address identified weaknesses.
Twenty-six POA&Ms, including high risk items that FAA identified in 2009, were
not resolved in a timely manner. For example, FAA wrote a POA&M for its lack
of a configuration management plan for the Registry’s system with a completion
date of May 31, 2010, but did not complete the plan until October 2011. Finally,
FAA officials informed us that because PII in aircraft registration records are

22
   Encryption is the process of changing information in such a way as to make it unreadable by anyone except those
possessing special knowledge (usually referred to as a “key”) that allows them to change the information back to its
original, readable form.
23
   Annual validation is required for users’ accounts and semi-annual for system owners and administrators’ accounts.
24
   Digital signature is a technology that uses encryption to authenticate the person who transmits information over a
network and to ensure that the information is not changed during transmission.
                                                                                  9


voluntarily submitted to the Registry by aircraft owners, FAA does not have any
responsibility to safeguard this sensitive information.

FAA Has Not Established Required Agreements with its Contractor
and Other Agencies That Receive Registry Information to Ensure That
Their Systems Protect the Information

FAA does not have FISMA-required agreements with its contractor and other
Federal agencies that receive Registry information to ensure that these third-
parties’ systems can protect the Registry’s PII from unauthorized access. FISMA
requires Federal agencies to establish interconnection security agreements to
authorize connections from one information system to systems outside of their
authorization. These agreements provide assurance that the outside systems are
secured according to the requirements for Federal information processing systems.
DOT policy also calls for FAA to require providers of external information system
services to employ security controls in accordance with the requirements for
Federal systems. However, FAA has not entered into such an agreement with the
vendor that produces pilots’ certifications or included the required terms in its
contract with the vendor. FAA also shares Registry information with other
Government agencies, such as TSA, and Federal and State prisons, but does not
have interconnection security agreements with all such entities. As a result, FAA
does not have any assurance that the information it provides to external parties
will be properly secured.

FAA’S CONTINGENCY PLAN FOR THE REGISTRY CANNOT
ENSURE THAT THE AGENCY WILL RECOVER THE SYSTEM
AFTER A SHUT-DOWN

FAA’s contingency plan for the Registry does not ensure that FAA will be able to
recover the Registry after a shut-down. At the time of our review, the plan
described how to recover the system in the event of an emergency shut-down.
However, FAA had not yet established an alternative operation site for the
Registry. Both NIST Special Publication 800-53 and DOT policy, issued in
August 2009 and June 2011 respectively, require DOT’s operating administrations
to establish alternate processing sites for their information systems and to
implement plans for the resumption of system operations for essential missions
and business functions when the primary processing capabilities are unavailable.

Furthermore, FAA’s test procedures for the Registry’s recovery plan do not
include testing a recovered system. Because the Registry is a high-impact system,
NIST requires FAA to test the Registry’s contingency plan at the alternate
processing site to determine the plan’s effectiveness and staff’s readiness to
execute the plan, review the test results, and initiate corrective actions. However,
                                                                                 10


FAA only makes phone calls to ensure that the key personnel can be contacted in
the event of an emergency shut-down of the Registry.

Due to a reorganization of information technology activities a number of years ago
and the Registry’s complexity, FAA is still working to establish the Registry’s
alternative processing site. However, the lack of testing of the Registry’s backup
systems at an alternative site creates the risk that FAA will be unable to resume
essential operations after a system shut-down and ensure continued access to
aircraft registrations and pilot certification records.

CONCLUSION

DOT’s primary mission is safety. Integrally related to the safety of aviation
operations is the security and integrity of information FAA collects on the pilots
and aircraft operating in the National Airspace System and around the world. In
furtherance of the aviation safety mission, FAA must collect and protect complete
and accurate aircraft and pilot data. In addition, FAA must also ensure this data is
readily available for safety purposes. The weaknesses we identified increase the
risk that the integrity and privacy of the Registry’s data will be compromised. In
addition, in the event of a system disruption, the data may not be available in a
timely manner. Until resolved, these weaknesses diminish FAA’s ability to fully
carry out its safety mission and provide required services and assistance to the
aviation public, airlines, law enforcement, foreign governments, and Federal
agencies responsible for homeland security.

RECOMMENDATIONS

To improve the accuracy, security, and reliability of the Registry’s data, we
recommend that FAA’s Administrator require the Associate Administrator for
Aviation Safety in consultation with the Agency’s Chief Information Officer:

1. Develop procedures for periodic reassessments of aircraft and airman data to
   improve and maintain data integrity.

2. Issue policy or regulations that clarify informational requirements for
   registration of aircraft owned by trusts for non-citizens.

3. Develop procedures to ensure that airman addresses are kept current.

4. Implement the provisions of the Intelligence Reform and Terrorism Prevention
   Act’s for pilot certifications.
                                                                                  11


5. Implement access monitoring, user accounts, and multi-factor authentication
   for the Registry.

6. Encrypt PII and mitigate the vulnerabilities on Registry computers. If controls
   cannot be implemented immediately then remove all PII or take other actions
   as appropriate, such as suspend the system’s operation in accordance with FAA
   Order 1280.1B.

7. Ensure that the FAA contractor’s computers and other third-party systems
   comply with information security controls required by FISMA and DOT
   policy.

8. Mitigate contingency planning weaknesses by selecting an alternative
   processing site and periodically conducting comprehensive contingency tests at
   the alternate site in accordance with DOT policy.

AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE

We provided FAA with a draft of this report on April 4, 2013, and requested the
Agency’s response within 30 calendar days. We received the response on June 20,
2013, which is included as an appendix to this report. FAA concurred with five of
our eight recommendations (2, 3, 4, 7, and 8) and partially concurred with three (1,
5, and 6).

FAA concurred with recommendation 2 and requested that it be closed based on
its recent publication of a revised policy on registration of non-citizen trusts;
however, we do not agree that FAA’s clarification of its aircraft registration policy
will ensure that FAA has the information it needs. The new policy states that
trustees, upon FAA’s request, should provide information about registered aircraft
and their operations within set time frames. However, FAA states that the Registry
is the system of record in which the Agency maintains information that users need
to locate individuals and aircraft. For the Registry to meet this purpose, FAA must
collect this information as part of the registration process so that is available to
users when they need it. Consequently, the new policy does not ensure that FAA
will have the information it needs for proper safety oversight. Therefore, we
request that FAA reconsider its response and provide information to clarify how it
will collect and maintain current information about the ownership and operation of
all aircraft owned under trusts for non-citizens.

FAA partially concurred with recommendations 1, 5 and 6. However, its planned
actions do not address the recommendations’ full intent. Therefore, we consider
                                                                                12


them open and unresolved and request that FAA reconsider its related responses.
Specifically:

• We disagree that the Agency has quality control processes in place that are
  sufficient to resolve recommendation 1. In addition, FAA has not provided
  information describing its quality control requirements for regular
  reassessments of the Registry’s data. The Agency’s planned action on data
  integrity improvements would be beneficial but does not go far enough. DOT
  policy requires semi-annual data integrity assessments for all information
  systems. FAA’s planned action does not comply with this policy. Therefore,
  we request that FAA provide additional information on actions it plans to take
  to periodically reassess the Registry’s data to identify and correct aircraft
  registrations and pilot certifications that do not conform to its policies and
  regulations.

• In response to recommendation 5, FAA stated that its self assessments of the
  Registry determined that the Registry’s system was at low risk for inadvertent
  disclosure of sensitive information, despite the fact that FAA has not
  implemented system account management and strong user identity
  authentication mechanisms. Further, FAA categorized the Registry as a high
  impact system, meaning that loss of confidentiality, integrity or availability of
  its information would have a severe or catastrophic effect on FAA’s
  operations. DOT policy requires high impact systems to use annual account
  validations and multifactor identity authentication to protect their sensitive
  information. FAA’s response does meet these DOT policy requirements for
  such high risk systems. Therefore, we request that FAA provide clarifying
  information on its plans for establishing annual account validations and
  multifactor user identity authentication.

• FAA’s lack of encryption of the data on its legacy systems does not comply
  with DOT policy and, therefore, does not sufficiently address recommendation
  6. DOT policy requires encryption of all sensitive PII, wherever it may reside,
  and does not allow for application of encryption when practical. We request
  that FAA provide information on its planned action to include encryption of all
  sensitive PII in the Registry, including that contained in legacy systems.

Given FAA’s reaction to our recommendations, we remain concerned that the
integrity and privacy of the Registry’s data will remain at risk.

ACTIONS REQUIRED

FAA’s planned actions for recommendations 3, 4, 7, and 8 are responsive and we
consider these recommendations resolved but open pending completion of the
                                                                                 13


planned actions. For recommendations 1, 2, 5, and 6, we are requesting the
Agency provide additional information on its planned actions, as detailed above.
In accordance with DOT Order 8000.1C, we request this information within 60
days. All corrections are subject to follow-up provisions in DOT Order 8000.1C.

We appreciate the courtesies and cooperation of Federal Aviation Administration
representatives during this audit. If you have any questions concerning this report,
please call me at (202) 366-1407, or Joann Adam, Program Director, at
(202) 366-1488.

                                         #


cc: Chief Information Officer, DOT
    Associate Administrator for Aviation Safety, FAA
    Assistant Administrator for Information Services and
     Chief Information Officer, FAA
    DOT Audit Liaison, M-1
    FAA Audit Liaison, AAE-100
                                                                                14


EXHIBIT A. SCOPE AND METHODOLOGY

We conducted our work from January 2011 through April 2013 in accordance with
generally accepted Government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence to provide
a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objectives.

To determine the sufficiency of the Registry’s aircraft registrations and pilots
records, if PII was secure from unauthorized use or access, and if contingency
planning ensures Registry continuity, we interviewed officials from several FAA
offices and directorates. This included FAA’s Flight Standards Service–Civil
Aviation Registry and Flight Standards Division Special Emphasis Investigations
Team. We also interviewed officials from FAA’s Office of Quality, Integration,
and Executive Services; Office of the Chief Counsel; Office of Information
Services–Information Systems Security; and Office of Acquisition Services–
Contract Management Team. We obtained, reviewed, and analyzed documentation
related to the confidentiality, integrity, and availability of the FAA’s Registry
system.

We used a statistical sample of 68 aircraft out of 10,292 from the Registry to
evaluate aircraft registration compliance with 14 CFR § 47 (Aircraft Registration).
We tested five key registration requirements on each of the 68 aircraft for a total
of 340 tests. This statistical sample allowed us to project aircraft registration
errors with a 90 percent confidence level and a precision of +/- 10 percent.

Finally, we performed a vulnerability assessment of the Registry’s Pilot and
Aircraft system components, including Pilot/Aircraft Web Services, IACRA Web
Services and Admin web site, Electronic Document Retrieval System (EDRSII),
Image Management System and the Registry and Office of Aviation Safety data
center’s pilot and aircraft processing infrastructure. We performed the assessment
using automated software tools as well as manual testing techniques. The results
of the scans were reviewed to determine if security settings meet policy and
baseline requirements for security testing, vendor updates (patches), and FAA’s
configuration of these systems.




Exhibit A. Scope and Methodology
                                                                 15



EXHIBIT B. MAJOR CONTRIBUTORS TO THIS REPORT


Name                                    Title

Joann Adam                              Program Director

Gerald Steere                           Project Manager

Tim Roberts                             Senior Auditor

Maria Dowds                             Senior Auditor

Susan Neill                             Writer-Editor

Seth Kaufman                            Senior Counsel

Sandra DeLost                           Information Technology
                                        Specialist

Megha Joshipura                         Statistician

Petra Swartzlander                      Senior Statistician

Allison La Vay                          Referencer




Exhibit B. Major Contributors to This Report
                                                                                       16




                   Federal Aviation
                   Administration


Memorandum
Date:      June 20, 2013
To:        Louis C. King, Assistant Inspector General for Financial and
           Information Technology Audits
From:      H. Clayton Foushee, Director, Office of Audit and Evaluation, AAE-1
Subject:   Federal Aviation Administration’s (FAA) Response to Office of Inspector
           General (OIG) Draft Report: FAA’s Civil Aviation Registry


The FAA Civil Aviation Registry (Registry) manages the permanent records for aircraft
registration and airman certification. Each is governed by a Systems of Record Notice
establishing its purpose, scope, and routine uses. Both systems are constantly evolving
with changes in the industry and regulatory environment. Improvements in data quality,
error checking, appropriate user access, and security are continually evaluated through
International Organization for Standardization (ISO-9001) certified processes and
advances in automation technologies.

RECOMMENDATIONS AND RESPONSES

Recommendation #1: Develop procedures for periodic reassessments of aircraft and
airman data to improve and maintain data integrity.

Response: Partial Concur. As described in the draft report, the Registry already has
processes in place to review aircraft and airman records, as well as quality control
processes. The FAA does not believe the recommended establishment of a scheduled
periodic reassessment procedure offers sufficient improvement to be worth the
investment in resources that would be required. However, the Registry will evaluate
ways to improve data quality and integrity and provide a follow-up response by
December 31, 2013.

Recommendation #2: Issue policy or regulations that clarify informational requirements
for registration of aircraft owned by trusts for non-citizens.

Response: Concur. An official FAA policy clarification on registration of aircraft
owned by trusts for non-citizens has been under development since early 2010 and was

Appendix: Agency Response
                                                                                         17


published in the Federal Register on June 18, 2013. The FAA request this
recommendation be closed.


Recommendation #3: Develop procedures to ensure that airman addresses are kept
current.

Response: Concur. Airmen are required by 14 Code of Federal Registration Part 61.60
to report a change in address within 30 days of a move and must provide an acceptable
physical residential address if different than a mailing address. It's the responsibility of
the airman to inform the FAA if there is a change of address, and this can be
accomplished through a change of address notification, when adding a rating or applying
for an airman certificate or replacement. The FAA provides policy guidance regarding
acceptable address information for FAA authorized designees, FAA inspectors and other
officials in FAA Orders 8900.1, 8900.2 and other publications. Additional instructions
are provided on each application for an airman certificate and/or rating. If an
airman/applicant provides an unacceptable address, the Registry rejects the application or
request for reissuance of a certificate and the permanent airman certificate is not issued
until the airman complies with the FAA address requirements to provide an acceptable
address. Currently, the FAA does not preclude an airman from using a flight school
address or acceptable commercial address as a preferred mailing address, as long as the
airman also provides an acceptable physical, residential address for the official airman
record. Both addresses, when provided, are included in data that the FAA provides to the
Transportation Security Administration (TSA) and other law enforcement entities, as
required by U.S.C. 44703. The residential address may be shown in the database or
contained within the airman record on digital images.

Also, the FAA continues to update its system to identify addresses that are not acceptable
in accordance with U.S.C. 44703, and has implemented software changes and system
edits to identify unacceptable addresses. The Registry utilizes United States Postal
Service software to identify and standardize address information in order to ensure the
address information provided by an applicant is not a fictitious address and to ensure
proper delivery of the airman certificate. Going forward, the FAA has purchased new
address validation software, called Melissa Data, which is currently undergoing testing to
confirm that it will identify a "commercial" address (such as a flight school address),
which would thereby require the airman to provide a physical residential address for
official record purposes. If this testing is successful, the FAA plans to fully implement
Melissa Data by September 30, 2014 and will also purchase a subscription of annual
updates to ensure continuing currency of address validation data.

It should be noted that many of the records identified by the OIG were established prior
to the requirement to provide a physical residential address. These airmen have had no
other contact with FAA, in some cases, since the original issuance of the airman
certificates. Many of the airmen the OIG identified are not “active”, and many of the
airman certificates were issued before or during the 1970’s and 1980’s, prior to the
requirement to provide a physical residential address (DEA Act of 1988). Prior to 1988,


Appendix: Agency Response
                                                                                          18


it was acceptable to use an aviation school address, a post office box or other mailing
address when applying for an airman certificate and the purpose of capturing an address
was to ensure the FAA had a good address to be able to mail airman certificates, FAA
safety publications and notices to airmen.

Recommendation #4: Implement the provisions of the Intelligence Reform and
Terrorism Prevention Act’s (IRTPA) for pilot certifications.

Response: Concur. Historically, the purpose of a pilot certificate is to display airman
certificate privileges and qualifications. Section 4022 of IRTPA changed the purpose and
utilization of a pilot certificate and required the FAA to issue improved pilot certificates
that (1) are resistant to tampering, altering, or counterfeiting; (2) include a photograph of
the individual to whom the certificate is issued; and (3) are capable of accommodating a
digital photograph, a biometric identifier, or any other unique identifier that the FAA
Administrator considers necessary.

The FAA began issuing plastic tamper- and counterfeit- resistant certificates in 2003. In
February 2008, the FAA published the Drug Enforcement Assistance (DEA) final rule
(73 FR 10662), which required all pilots (except student pilots) to obtain the tamper-
resistant plastic certificate by March 31, 2010. The DEA final rule satisfied the IRTPA
requirement to issue pilot certificates that are resistant to tampering, altering and
counterfeiting.

In November 2010, the FAA published a Notice of Proposed Rulemaking (NPRM) titled
“Photo Requirements for Pilot Certificates” (75 FR 70871). The NPRM proposed to
fulfill the final requirements of section 4022 of the IRTPA by requiring a photo of the
pilot on all plastic pilot certificates, including students. This rulemaking project was
placed on hold because it was superseded by Section 321 of the FAA Modernization and
Reform Act of 2012. To address the additional requirements of Section 321, and because
a pilot certificate is not and has never been utilized as a security credential, the FAA
formed a working group consisting of multiple FAA and TSA offices. This working
group is evaluating the FAA’s current certification processes and how they could be
changed to accommodate such certificates, the infrastructure required to utilize such
certificates, and associated costs that may be incurred. For example, the FAA must
consider infrastructure requirements such as biometric collection and card readers that
would need to be developed and distributed for airmen, government and industry to
utilize biometric pilot certificates. The working group is also looking at funding
considerations, and options to reduce the burden on the public and the FAA.

The new associated rulemaking project has been accepted by FAA’s Office of
Rulemaking, but a schedule has not yet been approved. The timing of any proposed rule
will be critical so as not to duplicate rulemaking efforts between TSA and the FAA, but
the complex project is unlikely to be complete in the near term, and therefore the FAA
will provide an update by September 30, 2015.

Recommendation #5: Implement access monitoring, user accounts, and multi-factor
authentication for the Registry.

Appendix: Agency Response
                                                                                         19



Response: Partial Concur. The FAA concurs with the recommendation to implement
access monitoring but does not concur with the recommendations regarding user accounts
or multi-factor authentication.

The OIG conducted this audit between January 2011 and April 2013. During this period,
the FAA closed a number of open Plan of Action and Milestones (POA&M) items which
add insight into FAA’s activities on this issue. The OIG confirmed the Fiscal Year (FY)
2012 Assessment Team audit review finding Cyber Security Assessment and
Management ID 48954) that web application audit logs are not routinely monitored.
During the follow on FY2013 assessment, the Assessment Team concluded that the
system owners review web application audit records on a daily basis, and recommended
closing POA&M item 48954 with an effective date of March 2013. The FY2013
Assessment Team also recommended that the Integrated Airman Certification and Rating
Application (IACRA) Information Technology Program Manager continue progress on
POA&M item 28838, to modify the application to have a user interface that can display
audit reports such as events that occurred during a selected time span or a listing of audit
records for a specific event type. This modification is scheduled to be completed by
September 30, 2013.

The OIG proposes an annual process to validate user accounts for the Registry web
applications and the IACRA system. These applications provide services to authorized
users, as the user requires these services, but once authorized, the applications do not
require any minimum level of activity to maintain an account. The FY2013 Security
Assessment Team assessed this risk as the lowest level of risk that can be calculated for
the Registry system. Based on the business requirements and the extremely low risk, the
Assessment Team recommended that the risk be accepted by the Authorizing Official, as
it was previously with POA&M item 38397.

The Office of Management and Budget published Memorandum number 4 in FY2004
(M-04-04) that describes the e-authentication analysis process. Assessment Teams use
the M-04-04 process to determine the level of authentication required for non-
organizational (external) users, e.g. Designated Pilot Examiners. The IACRA system and
the Registry web applications authenticate external users. The FY2013 Assessment
Team completed independent assessments and determined that level 2 user identifier and
passwords are appropriate and should be required. The FAA reviewed, and concurs with
the Assessment Team conclusion, that multi-factor authentication is not required for
external users.

Recommendation #6: Encrypt PII and mitigate the vulnerabilities on Registry
computers. If controls cannot be implemented immediately then remove all PII or take
other actions as appropriate, such as suspend the system’s operation in accordance with
FAA Order 1280.1B.

Response: Partial Concur. The FAA concurs with the OIG recommendation to mitigate
the vulnerabilities on the Registry computers. However, this remediation cannot be


Appendix: Agency Response
                                                                                       20


performed immediately. FAA Order 1280.1B, Protecting Personally Identifiable
Information (PII), does not require immediate implementation and thus the FAA will not
suspend operations. The Registry and IACRA systems will continue to operate while the
FAA performs activities to mitigate the vulnerabilities.

The OIG confirmed the FY2012 Assessment Team patch management finding. In
response to missing patches, the FY2013 Assessment Team updated POA&M item 38344
for the Registry and developed a new POA&M item for the IACRA system to address
missing security patches. The FAA concurs with the OIG conclusions and assessed these
POA&M items at a high risk level. Remediation is scheduled for completion by
September 30, 2013.

As the OIG noted in the findings, the Registry system contains several legacy
components, therefore, the FAA will not be able to encrypt all PII. In cases where
encryption is not practical, the FAA will continue to implement strong access controls to
PII in accordance with DOT Privacy Policy. The current access controls reduce risk to an
acceptable level, in compliance with that same DOT Privacy Policy.

It is not practical to implement encryption in the mainframe portion of the Registry
system as this component is being phased out. In addition, the image files cannot be
encrypted because of the legacy application. However, the image files are stored with a
proprietary wrapper and are not directly readable from storage. The sensitive data
residing in databases in the enterprise data center can be encrypted, and the FAA is
reviewing potential solutions and plan to implement by December 31, 2013.

Recommendation #7: Ensure that the FAA contractor’s computers and other third-party
systems comply with information security controls required by FISMA and DOT policy.

Response: Concur. The FAA will add additional security controls to the next contract
and Statement of Work (SOW) which goes into effect October 2013. Even though
specific security requirements were not listed in the contract, the security requirements
were vetted by the FAA’s contracting office prior to awarding the contract. The current
SOW requires periodic background checks on each individual with access to airman data
and the contractor routinely provides background check results to the FAA.

Recommendation #8: Mitigate contingency planning weaknesses by selecting an
alternative processing site and periodically conducting comprehensive contingency tests
at the alternate site in accordance with DOT policy.

Response: Concur. An alternate data center with demonstrated failover capability has
been an identified vulnerability (POA&M item 48951). Due to competing priorities,
slow progress has been made with a tentative date of September 30, 2014 to remediate
this vulnerability. The FAA plans system functionality testing at the FAA disaster
recovery site, the William J. Hughes Technical Center (WJHTC), Atlantic City, New
Jersey. This activity is dependent upon the Unisys upgrade to version 8.2 and the



Appendix: Agency Response
                                                                                         21


inclusion of the ancillary servers on the replication platform. The FAA scheduled this
item to be completed by September 30, 2014.

Although the FAA still needs to conduct functional testing at the alternative processing
site, the FAA has conducted several other contingency tests. The Registry has an
approved Information Security Contingency Plan in place in which Registry data is
transferred to the WJHTC to provide an offsite storage location that is not subject to the
same hazards as the primary site. The FAA has successfully completed file recovery
exercises of the data transferred to the WJHTC. Additionally;
       1. The FAA participates in two exercises per year simulating the loss of the
          mainframe component and also participates in the Mike Monroney
          Aeronautical Center exercises to evaluate continuity of operations readiness in
          a variety of scenarios.
       2. Offsite backups and multiple levels of data protection are already in place.
          However, providing an alternate datacenter with demonstrated failover
          capability has been an identified vulnerability and the FAA plans to remediate
          this vulnerability by September 30, 2014.
       3. System functionality testing is scheduled to be done at the designated
          Aviation Safety disaster recovery site at Atlantic City, New Jersey. This
          activity is currently scheduled to be completed by September 30, 2014.




Appendix: Agency Response
